PREMI
ERMEMBERSCREDI
TUNI
ON

VISA Classic, Secured VISA Classic, VISA Platinum, VISA Platinum Rewards and
Secured VISA Platinum Minimum Payments will be an amount equal to 2.50% of
Your new unpaid VISA Classic, Secured VISA Classic, VISA Platinum, VISA
Platinum Rewards or Secured VISA Platinum balance at the end of each billing
cycle, subject to the lesser of $35.00 or Your balance, plus any portion of the
Minimum Payments shown on prior statement(s) which remains unpaid, plus any
amount that exceeds Your approved Credit Limit.
You may, by separate agreement, authorize Us to charge Your payment directly to
Your share or share draft account.
LATE CHARGE (EXCEPT VISA). If Your payment is more than 15 days late, You
will be charged $15.00.
RETURNED CHECK CHARGE (EXCEPT VISA). You will be charged $15.00 for any
check (or other negotiable instrument used for payment) which is returned unpaid.
FINANCE CHARGES (EXCEPT VISA). A Finance Charge will be assessed on any
unpaid principal balance for each Feature Category of Your Account for the period
such balance is outstanding. Balances change each time advances are made,
payments are made or credits given under any Feature Category. The Finance
Charge begins to accrue on the date of each advance and there is no grace period.
HOW TO DETERMINE THE FINANCE CHARGE (EXCEPT VISA). For all Feature
Categories (Except VISA), the Finance Charge is determined by multiplying Your
unpaid balance at the close of each day in the billing cycle being accounted for by
the applicable Daily Periodic Rate. The unpaid balance is the balance each day
after payments, credits, and unpaid Finance Charges to that balance have been
subtracted and any new advances, insurance premiums or other charges have
been added to Your unpaid balance. These daily Finance Charges are then added
together and the sum is the amount of the Finance Charge owed for the Feature
Category being accounted for. The total Finance Charge You owe on Your Account
for each billing cycle is the sum of all the Finance Charges due for all applicable
Feature Categories.
VISA FINANCE CHARGES. In the case of any transactions under Your VISA Classic,
Secured VISA Classic, VISA Platinum, VISA Platinum Rewards or Secured VISA
Platinum Feature Categories, the balances subject to the periodic Finance Charge are
the average daily transactions balances outstanding during the month (including new
transactions). To get the average daily balance, We take the beginning balance of
Your Account each day, add any new purchases, balance transfers, cash advances,
debit adjustments or other costs and charges and subtract any payments, credits and
unpaid Finance Charges. This gives Us the daily balance. Then, We add up all the
daily balances for the billing cycle and divide them by the number of days in the billing
cycle. The Finance Charge for a billing cycle is computed by multiplying the average
daily balance subject to a Finance Charge by the Daily Periodic Rate times the
number of days in the billing cycle.
You can avoid Finance Charges on purchases by paying the full amount of the
entire balance owed each month within 25 days of Your statement closing date.
Otherwise, the new balance of purchases, and subsequent purchases from the
date they are posted to Your Account, will be subject to a Finance Charge. Cash
advances and balance transfers are always subject to a Finance Charge from the
later of the date they are posted to Your Account or from the first day of the billing
cycle in which the cash advance is posted to Your Account.
OVERDRAFT PROTECTION. We may transfer funds in the amount necessary (or
in such increments as We may from time to time determine) to Your share draft
account by an advance on Your Overdraft Line of Credit Feature Category, subject
to this provision, to clear any overdraft on Your share draft account. Whether or not
such transfers occur will be controlled by this Agreement. In any event, You hold
Us harmless for any and all liability which might otherwise arise if the transfer does
not occur. Overdraft protection automatically ceases if this Agreement is ever
cancelled or terminated or Your Account is in default.
PERIODIC STATEMENTS. On a regular basis, You will receive a statement
showing all transactions on Your Account including amounts paid and borrowed
since Your last statement. We will mail You a statement each month in which there
is a debit or credit balance or when a Finance Charge is imposed. We need not
send You a statement if We feel Your Account is uncollectible or if We have started
collection proceedings against You because You defaulted. EACH STATEMENT IS
DEEMED TO BE A CORRECT STATEMENT OF ACCOUNT UNLESS YOU
ESTABLISH A BILLING ERROR PURSUANT TO THE FEDERAL TRUTH-INLENDING ACT.
OUR RESPONSIBILITIES TO HONOR CONVENIENCE CHECKS. We are under
no obligation to honor Your Convenience Checks if: (1) by paying a Convenience
Check, You would exceed Your Credit Limit; (2) Your Cards or Convenience
Checks have been reported lost or stolen; (3) Your Account has been cancelled or
Copyright Oak Tree Business Systems, Inc., 2013-2014. All Rights Reserved.

has expired. If a postdated Convenience Check is paid and, as a result, any other
Convenience Check is returned unpaid, We are not responsible for any resulting
loss or liability.
DEFAULT. You will be in default if: (a) You do not make any payment or perform
any obligation under this Agreement, or any other agreement that You may have
with Us; or (b) You should die, become involved in any insolvency, receivership or
custodial proceeding brought by or against You; or (c) You have made a false or
misleading statement in Your credit application and/or in Your representations to
Us while You owe money on Your Account; or (d) A judgment or tax lien should be
filed against You or any attachment or garnishment should be issued against any of
Your property or rights, specifically including anyone starting an action or
proceeding to seize any of Your funds on deposit with Us; and/or (e) We should, in
good faith, believe Your ability to repay Your indebtedness hereunder is or soon will
be impaired, time being of the very essence.
Upon any occurrence of default, We may, to the extent permitted by law, cancel
Your rights under this Agreement, require the return of all access devices and
declare the entire balance of every Feature Category of Your Account immediately
due and payable, without prior notice or demand.
COLLECTION COSTS. In the event collection efforts are required to obtain
payment on this Account, to the extent permitted by law, You agree to pay all court
costs, private process server fees, investigation fees or other costs incurred in
collection and reasonable attorneys’ fees incurred in the course of collecting any
amounts owed under this Agreement or in the recovery of any Collateral.
ENFORCEMENT. We do not lose Our rights under this or any related agreement if
We delay enforcing them. We can accept late payments, partial payments or any
other payments, even if they are marked "paid in full" without losing any of Our
rights under this Agreement. If any provision of this or any related agreement is
determined to be unenforceable or invalid, all other provisions remain in full force
and effect.
NOTIFICATION OF ADDRESS CHANGE. You will notify Us promptly if You move
or otherwise have a change of address.
CHANGE IN TERMS. We may change the terms of this Agreement by mailing or
delivering to You written notice of the changes as prescribed by the Federal TruthIn-Lending Act. To the extent permitted by law, the right to change the terms of this
Agreement includes, but is not limited to, the right to change the periodic rate
applicable to Your unpaid balance and/or future advances.
INTEGRATED DOCUMENTS. Any separate sheet of paper labeled "Additional
Disclosure - Federal Truth-In-Lending Act", which is delivered together with this
Agreement or at a later date becomes an integrated part of this Agreement
and Disclosure.
CONSENT TO AGREEMENT. You acknowledge receipt of a copy of this
Agreement. By signing the application; or by using Your Account or any Account
access device; or by authorizing another to use Your Account, You agree to and
accept its terms.
UPDATING AND DISCLOSING FINANCIAL INFORMATION. You will provide facts
to update information contained in Your original Account application or other
financial information related to You, at Our request. You also agree that We may,
from time to time, as We deem necessary, make inquiries pertaining to Your
employment, credit standing and financial responsibility in accordance with
applicable laws and regulations. You further agree that We may give information
about the status and payment history of Your Account to consumer credit reporting
agencies, a prospective employer or insurer, or a state or federal licensing agency
having any apparent legitimate business need for such information.
TERMINATION. Either You or We may cancel Your Account or any particular
Feature Category of Your Account, at any time, whether or not You are in default.
You will, in any case, remain liable to pay any unpaid balances according to the
terms of Your Account.
GOVERNING LAW. This Agreement is controlled and governed by the laws of the
State of Colorado, except to the extent that such laws are inconsistent with
controlling federal law.
SPECIFIC TERMS APPLICABLE TO YOUR VISA CLASSIC,
SECURED VISA CLASSIC, VISA PLATINUM, VISA PLATINUM REWARDS
AND SECURED VISA PLATINUM CREDIT CARDS
USE OF YOUR CARD. You may use Your Card to buy goods and services in any
place that it is honored and to get cash advances at participating financial
institutions. You agree not to use Your Card for illegal transactions including, but

Page 3 of 4

OTBS 016 BVCU (7/14)

not limited to, advances made for the purpose of gambling and/or wagering where
such practices are in violation of applicable state and/or federal law.
OWNERSHIP. Your Card remains Our property and may be cancelled by Us at any
time without notice. You agree to surrender Your Card and to discontinue its use
immediately upon Our request.
ISSUANCE OF A PERSONAL IDENTIFICATION NUMBER. We will issue, upon
Your request, a Personal Identification Number (PIN) for use with participating
Automated Teller Machines (ATMs). This PIN is confidential and should not be
disclosed to anyone. You may use Your PIN to access Your Account and all sums
advanced will be added to Your Account balance. In the event a use of Your PIN
constitutes an Electronic Fund Transfer, the terms and conditions of Your
Electronic Fund Transfer Agreement may also affect Your rights.
EFFECT OF AGREEMENT. Even though the sales, cash advance, credit or other
slips You may sign or receive when using Your Card contain terms, this Agreement
is the contract which solely applies to all transactions involving the Card.
UNAUTHORIZED USE. You may be liable for the unauthorized use of Your Card.
You will not be liable for the unauthorized use that occurs after You notify Us of the
loss, theft, or possible unauthorized use by calling Us during regular business
hours at (303) 442-8850 and after hours, on weekends and holidays at (800) VISA911. You may also notify Us of the loss, theft, or possible unauthorized use by
writing to Us at 5505 Arapahoe Avenue, Boulder, CO 80303. In any case, Your
liability will not exceed $50.00.

What To Do If You Find A Mistake On Your Statement
If You think there is an error on Your statement, write to Us at Our address shown
in this Agreement. In Your letter, give us the following information:





You must contact Us:




What Will Happen After We Receive Your Letter
When We receive Your letter, We must do two things:
1)




TRANSACTION SLIPS. Your monthly statement will identify that merchant,
electronic terminal or financial institution at which transactions were made, but
sales, cash advances, credit or other slips cannot be returned with the statement.



OTHER FEES AND CHARGES. You will be charged the following fees
associated with the use of Your Card (a) the lesser of $35.00 or the required
minimum payment amount for the returned payment for any check (or other
negotiable instrument used for payment) which is returned unpaid; (b) $2.00 for
each statement that You request We provide You with a duplicate copy; (c)
$2.00 for each document that You request We provide You with a duplicate
copy; (d) $10.00 for each sales draft that You request We provide You with a
duplicate copy; (e) $5.00 for each replacement Personal Identification Number
(PIN) You request; (f) $30.00 for each item You request We provide on an
expedited basis; and (g) $80.00 per hour each time You request that We
conduct research on Your Card.
LOST CARDS OR CONVENIENCE CHECKS. To report lost or stolen Credit Cards
or Convenience Checks, You will immediately call Us during regular business hours
at (303) 442-8850 and after hours, on weekends and holidays at (800) VISA-911.
You may also report lost or stolen Credit Cards or Convenience Checks by writing
to Us at 5505 Arapahoe Avenue, Boulder, CO 80303.
CREDITS. If a merchant who honors Your Card gives You credit for returns or
adjustments, they will do so by sending Us a slip which will be posted to Your
Account. If Your credits and payments exceed what You owe Us, We will hold and
apply this credit against future purchases and cash advances, or if it is $1.00 or
more refund it on Your written request or automatically deposit it to Your Share
Account after 6 months.

Within 30 days of receiving Your letter, We must tell You that We received
Your letter. We will also tell You if We have already corrected the error.
Within 90 days of receiving Your letter, We must either correct the error or
explain to You why We believe the bill is correct.

While We investigate whether or not there has been an error:

FOREIGN TRANSACTIONS. For transactions initiated in foreign countries and
foreign currencies, the exchange rate between the transaction currency and the
billing currency (U.S. dollars) will be: (a) a rate selected by VISA from the range of
rates available in wholesale currency markets for the applicable central processing
date, which rate may vary from the rate VISA itself receives; or (b) the governmentmandated rate in effect for the applicable central processing date. For transactions
that are initiated in a foreign currency, You will be charged 1.00% of the final
settlement amount. For transactions occurring in foreign countries and initiated in
U.S. Dollars, You will be charged 0.80% of the final settlement amount.

LATE CHARGE. If Your payment is more than 10 days late, You will be charged
the lesser of: (a) $25.00; or (b) the amount of the minimum payment due.

Within 60 days after the error appeared on Your statement.
At least three business days before an automated payment is scheduled, if
You want to stop payment on the amount You think is wrong.

You must notify Us of any potential errors in writing. You may call Us, but if You do
We are not required to investigate any potential errors and You may have to pay
the amount in question.

2)
REFUSAL TO HONOR CARDS OR CONVENIENCE CHECKS. We are not
liable for the refusal or inability of merchants, financial institutions and others
to accept the Cards or Convenience Checks, or electronic terminals to honor
the Cards or complete a Card withdrawal, or for their retention of the Cards or
Convenience Checks.

Account information: Your name and Account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If You think there is an error on Your bill, describe
what You believe is wrong and why You believe it is a mistake.




We cannot try to collect the amount in question, or report You as delinquent
on that amount.
The charge in question may remain on Your statement, and We may continue
to charge You interest on that amount.
While You do not have to pay the amount in question, You are responsible for
the remainder of Your balance.
We can apply any unpaid amount against Your Credit Limit.

After We finish Our investigation, one of two things will happen:



If We made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.
If We do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send You a
statement of the amount You owe and the date payment is due. We may then
report You as delinquent if You do not pay the amount We think You owe.

If You receive Our explanation but still believe Your bill is wrong, You must write to
Us within 10 days telling Us that You still refuse to pay. If You do so, We cannot
report You as delinquent without also reporting that You are questioning Your bill.
We must tell You the name of anyone to whom we reported You as delinquent, and
We must let those organizations know when the matter has been settled between
Us. If We do not follow all of the rules above, You do not have to pay the first
$50.00 of the amount You question even if Your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If You are dissatisfied with the goods or services that You have purchased with
Your Credit Card, and You have tried in good faith to correct the problem with the
merchant, You may have the right not to pay the remaining amount due on the
purchase. To use this right, all of the following must be true:

1)

2)
3)

The purchase must have been made in Your home state or within 100 miles
of Your current mailing address, and the purchase price must have been
more than $50.00. (Note: Neither of these are necessary if Your purchase
was based on an advertisement We mailed to You, or if We own the company
that sold You the goods or services.)
You must have used Your Credit Card for the purchase. Purchases made with
cash advances from an ATM or with a check that accesses Your Credit Card
account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and You are still dissatisfied with the purchase,
contact Us in writing at Our address shown in this Agreement.

Your Billing Rights: Keep this Document for Future Use
This notice tells You about Your rights and Our responsibilities under the Fair
Credit Billing Act.
Copyright Oak Tree Business Systems, Inc., 2013-2014. All Rights Reserved.

While We investigate, the same rules apply to the disputed amount as discussed
above. After We finish Our investigation, We will tell You Our decision. At that point, if
We think You owe an amount and You do not pay, We may report You as delinquent.

Page 4 of 4

OTBS 016 BVCU (7/14)

